1,

•

y

v.

APPENDICES

\ Appsilate Case: 20-1167 , Document: 010110506122

Date Filed: 04/12/2021

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 12, 2021
Christopher M. Wolpert
Clerk of Court

LNV CORPORATION,
Plaintiff - Appellee,
v.

No. 20-1167
(D.C.No. 1:14-CV-00955-RM-SKC)
(D. Colo.)

MARY JULIA HOOK,
Defendant - Appellant,
UNITED STATES OF AMERICA,
Defendant - Appellee,
and
DAVID LEE SMITH; PRUDENTIAL
HOME MORTAGAGE COMPANY,
INC.; SAINT LUKES LOFTS
HOMEOWNER ASSOCATION, INC.;
DEBRA JOHNSON, in her official
capacity as the Public Trustee of the City
and County of Denver, Colorado,
Defendants.

ORDER AND JUDGMENT*

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 20-1167

Document: 010110506122

Date Filed: 04/12/2021

Page: 2

Before PHILLIPS, McHUGH, and CARSON, Circuit Judges.

Mary Julia Hook, an attorney proceeding pro se, appeals from the district
court’s March 2, 2020, Order Confirming Judicial Sale. Exercising jurisdiction under
28 U.S.C. § 1291, we dismiss the appeal as frivolous.
Ms. Hook previously appealed from the judgment in the underlying
foreclosure case. See LNV Corp. v. Hook {Hook I), 807 F. App’x 893 (10th Cir.),
cert, denied, 141 S. Ct. 939 (2020). Hook I described Ms. Hook’s arguments
challenging the judgment as “wholly frivolous.” Id. at 895. “As an attorney, she
should have known that they lacked any merit before she argued them; and in large
part, the appellees’ briefs make that perfectly clear. We see no need to further
educate Hook.” Id. Accordingly, this court dismissed her appeal in Hook I. See id.
Ms. Hook’s opening brief largely reiterates the “wholly frivolous” arguments
she offered in Hook I. But given the law of the case doctrine, we will not revisit
those arguments. See Brokers’ Choice ofAm., Inc. v. NBC Universal, Inc., 861 F.3d
1081, 1099 (10th Cir. 2017) (“[W]hen a court decides upon a rule of law, that
decision should continue to govern the same issues in subsequent stages in the same
case. An appellate court decision on a particular issue ... governs the issue during
all later stages of the litigation in the district court and thereafter on any further
appeal.” (citations and internal quotation marks omitted)). There are exceptions to
the doctrine, see id., but none applies here. And Ms. Hook’s request that this panel
vacate and set aside Hook 1 disregards well-established law that one panel cannot

2

Appellate Case: 20-1167

Document: 010110506122

Date Filed: 04/12/2021

Page: 3

overrule the decision of another panel, absent intervening en banc or Supreme Court
authority. See Strain v. Regalado, 977 F.3d 984, 993 (10th Cir. 2020).
In addition to previously raised arguments, the opening brief appears to
advance new arguments challenging the April 2019 judgment. But the subject of this
appeal is the Order Confirming Judicial Sale, not the judgment. All challenges to the
judgment could, and should, have been raised in Hook /.
The few assertions in the opening brief that may be relevant to the Order
Confirming Judicial Sale are inadequately briefed. See Fuerschbach v. Sw. Airlines
Co., 439 F.3d 1197, 1209-10 (10th Cir. 2006) (collecting authorities holding that
inadequately briefed and underdeveloped theories are waived). Ms. Hook’s
conclusory assertions of procedural error fail to sufficiently identify or argue any
violations. She criticizes the district court for not holding a hearing before it issued
the Order Confirming Judicial Sale, but she does not show that she was entitled to
such a hearing, or even that she requested one. And she makes no argument for plain
error. See Richison v. Ernest Grp., Inc., 634 F.3d 1123, 1131 (10th Cir. 2011)
(“[T]he failure to argue for plain error and its application on appeal. . . surely marks
the end of the road for an argument for reversal not first presented to the district
court.”).
Finally, Ms. Hook asserts that the district court was biased against her because
it denied her motion to proceed on appeal without prepayment of fees and costs. But
as we have previously explained to her, “adverse rulings alone do not demonstrate
judicial bias,” meaning that an “argument rel[ying] solely on the district court’s
3

’ ’ Appellate Case: 20-1167

Document: 010110506122

Date Filed: 04/12/2021

Page: 4

adverse rulings ... is devoid of merit.” Hook I, 807 F. App’x at 895 (brackets and
internal quotation marks omitted).
For these reasons, this appeal is dismissed as frivolous. See Ford v. Pryor,
552 F.3d 1174, 1180 (10th Cir. 2008) (“An appeal is frivolous when the result is
obvious, or the appellant’s arguments of error are wholly without merit.” (internal
quotation marks omitted)). LNV Corporation’s pre-briefing motions to dismiss the
appeal and to release a notice of lis pendens are denied as moot. The requests in
Ms. Hook’s reply briefs for sanctions and attorney discipline are denied.
Entered for the Court

Carolyn B. McHugh
Circuit Judge

4

Case l:14-cv-00955-RM-SKC Document 463 Filed 03/02/20 USDC Colorado Page 1 of 2
i

»

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Raymond P. Moore
Civil Action No. 14-cv-00955-RM-SKC
LNV CORPORATION,
Plaintiff,
v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.
ORDER CONFIRMING JUDICIAL SALE
This matter is before the Court on Plaintiff LNV Corporation’s Return of Sale (ECF No.
462) in which it seeks approval and confirmation of a judicial sale. Upon review of the record, and
under the facts and circumstances of this case,1 the Court finds the United States Marshals,
pursuant to the Court’s Order of Foreclosure and Judicial Sale (ECF No. 443), properly conducted
the sale of the real property described as Lot 1, Block 1, Crestmoor Park, City and County of
Denver, State of Colorado, commonly known as 5800 East 6th Avenue, Denver, Colorado 80220
(the “Property”). See Notice of Sale (ECF Nos. 457-460) & Certificate of Purchase (ECF No. 461).
The Court also finds the Property was sold to LNV Corporation, being the highest credit bid.

The Court finds no response is necessary before making its findings and ruling.

6

Case l:14-cv-00955-RM-SKC Document 463 Filed 03/02/20 USDC Colorado Page 2 of 2
, *

Accordingly, it is ORDERED
(1) That Plaintiffs Return of Sale with a request for confirmation (ECF No. 462) is
GRANTED;
(2) That the sale of the Property is CONFIRMED;
(3) That the United States Marshal, or his or her representative, shall execute and deliver to
the purchaser a deed of judicial sale conveying the property to the purchaser;
(4) That on delivery of the deed ofjudicial sale all right, title, lien, claim, and interest in or
to the Property including, but not limited to, those held or asserted against the Property
by any of the parties to this action and any successors in interest or transferees of those
parties shall be discharged and extinguished, except as otherwise provided by
applicable ordinance or regulation of the City and County of Denver, State of
Colorado, with respect to liens in favor of such City and County; and
(5) That the Clerk shall close this case.
DATED this 2nd day of March, 2020.
BY THE COURT:

RAYMOND P. MOORE
United States District Judge

2

' Appellate Case: 20-1167

Document: 010110547320

Date Filed: 07/12/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

Page: 1

FILED
United States Court of Appeals
Tenth Circuit
July 12, 2021
Christopher M. Wolpert
Clerk of Court

LNV CORPORATION,
Plaintiff - Appellee,
v.

DAVID LEE SMITH, as Personal
Representative of the Estate of Mary Julia
Hook,

No. 20-1167
(D.C. No. 1:14-CV-00955-RM-SKC)
(D. Colo.)

Defendant - Appellant,
UNITED STATES OF AMERICA,
Defendant - Appellee,
and
DAVID LEE SMITH, et al.,
Defendants.

ORDER

Before PHILLIPS, McHUGH, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular

/X

c

* Appellate Case: 20-1167

Document: 010110547320

Date Filed: 07/12/2021

Page: 2

active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

2

Case l:14-cv-00955-RM-SKC Document 442 Filed 04/05/19 USDC Colorado Page 1 of 3

EXHIBIT 1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No.

14-CV-00955-RM-SKC

LNV CORPORATION,
Plaintiff,
v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.

FINAL JUDGMENT

In accordance with the orders filed during the pendency of this case, and pursuant
to Fed. R. Civ. P. 58(a), the following Final Judgment is hereby entered.
Pursuant to the Order (Doc. 441) by Judge Raymond P. Moore dated April 5, 2019, it
is
ORDERED that pursuant to the Order dated March 13, 2017 (Doc. 301) summary
judgment is entered in favor of Plaintiff LNV Corporation as follows: (1) on its first claim for
determination of interests - against Defendants Smith, St. Luke’s, and the United States; (2)
on its second claim for judicial foreclosure - against all defendants; and (3) on its fifth claim
for money judgment - against Defendant Hook.

It is

4^

Case l:14-cv-00955-RM-SKC Document 442 Filed 04/05/19 USDC Colorado Page 2 of 3
1-T

FURTHER ORDERED that pursuant to the Order dated March 13, 2017 (Doc. 301)
summary judgment Is entered in favor of Plaintiff LNV Corporation and against Defendants
M. Julie Hook and David L. Smith on their counterclaims based on the Loft Property.

It is

FURTHER ORDERED that pursuant to the Order dated March 14, 2017 (Doc. 303)
summary judgment is entered in favor of Defendant United States of America as to
Plaintiffs first claim for determination of interests. It is
FURTHER ORDERED that pursuant to the Order dated June 28, 2017 (Doc. 320)
summary judgment is entered in favor of Plaintiff LNV Corporation, and against Defendants
The Prudential Home Mortgage, Inc.; Debra Johnson, in her official capacity; and M. Julia
Hook. Plaintiff is owed the following: $610,243.49 in principal; $1,192.92 in unpaid late
charges; $33.00 in recording fees; and $955.00 in inspection fees.

It is

FURTHER ORDERED that pursuant to the Order dated June 21,2018 (Doc. 404)
judgment shall enter in favor of Plaintiff LNV Corporation as follows: (1) Interest from
August 2, 2009 through May 1, 2018, totaling $390,810.34; (2) Per diem interest of $121.21;
(3) Real property taxes paid of $50,945.93; (4) Property (hazard) insurance premiums paid
of $30,191.75; and (5) City and County of Denver water/sewer fees, and related late fees,
paid of $543.12.

It is

FURTHER ORDERED that pursuant to the Order dated March 5, 2019 (Doc. 436)
Plaintiff LNV Corporation is awarded attorney’s fees and costs in the amount of
$239,510.00, which is owed under the Promissory Note as of May 31, 2018.

It is

FURTHER ORDERED that pursuant to the Order dated December 4, 2015 (Doc.
218) judgment is entered in favor of Defendant United States of America and against
Defendant M. Julia Hook.

It is
2

Case l:14-cv-00955-RM-SKC Document 442 Filed 04/05/19 USDC Colorado Page 3 of 3

FURTHER ORDERED that this case shall remain open pending the Court’s order
confirming the judicial sale and distributing the proceeds from the sale.
Dated this 5th day of April, 2019.
FOR THE COURT:
JEFFREY P. COLWELL
Bv:

3

s/C. Pearson___________
C. Pearson, Deputy Clerk

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Raymond P. Moore
Civil Action No. 14-cv-00955-RM-SKC
LNV CORPORATION,
Plaintiff,
v.
M. JULIA HOOK, an individual,
THE PRUDENTIAL HOME MORTGAGE, INC.,
UNITED STATES OF AMERICA,
SAINT LUKE’S LOFTS HOMEOWNER ASSOC. INC.,
DEBRA JOHNSON, in her official capacity as the Public Trustee of the City and County of
Denver, Colorado, and
DAVID L. SMITH, an individual,
Defendants.
ORDER OF FORECLOSURE AND JUDICIAL SALE
Based on the findings, conclusions, and orders issued in the Court’s previous Orders (ECF
Nos. 301, 303, 320,404,436) (collectively, “Orders”), the Court enters this Order of Foreclosure
and Judicial Sale pursuant to the provisions of 28 U.S.C. §§ 2001 & 2002. In accordance with the
foregoing, the Court hereby ORDERS as follows:
1.

This Order of Foreclosure and Judicial Sale pertains to a parcel of real property and

improvements located in the City and County of Denver, State of Colorado, and more particularly
described as Lot 1, Block 1, Crestmoor Park, City and County of Denver, State of Colorado,
commonly known as 5800 East 6th Avenue, Denver, Colorado 80220 (the “Property”).
2.

Plaintiff LNV Corporation (“LNV”) has a valid first priority lien on the Property,

arising from the Deed of Trust dated May 8, 2002 and recorded on May 16, 2002 in the real

*

i

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 2 of 8

property records of the City and County of Denver, State of Colorado, under Reception No.
2002090105 (the “Deed of Trust”). (See Orders dated March 13,2017 (ECF No. 301); March 14,
2017 (ECF No. 303); June 28, 2017 (ECF No. 320); and June 21,2018 (ECF No. 404).)
3.

The United States has valid federal tax liens against Defendants M. Julia Hook and

David L. Smith (“Hook and Smith”) as set forth in the Court’s March 14, 2017 Order (ECF No.
303), which are second in priority to LNV’s Deed of Trust against the Property.
4.

Pursuant to this Court’s Orders, the Deed of Trust is to be foreclosed under

28 U.S.C. §§ 2001 and 2002 and in accordance with this Order of Foreclosure and Judicial Sale.
The United States Marshal, or his or her representative, is authorized and directed under 28 U.S.C.
§§ 2001 and 2002 to offer for public sale and to sell the Property free and clear of all right, title,
lien, claim, and interest in or to the Property.
5.

This Order of Foreclosure and Judicial Sale shall act as a special writ of execution

and no further orders or process from the Court shall be required.
6.

Upon entry of this Order of Foreclosure and Judicial Sale, the United States

Marshal, or his or her representative, is authorized to have free access to the Property and to take
all actions necessary to preserve the Property, including, without limitation, retaining a locksmith
or other person to change or install locks or other security devices on any part thereof, until a deed
thereto is delivered to the ultimate purchaser(s).
7.

The terms and conditions of the sale are as follows:
a.

Except as otherwise stated herein, the sale of the Property shall be by public
auction to the highest bidder, free and clear of all right, title, lien, claim, and
interest in or to the Property, including, but not limited to, all parties to this
2

t

•V
r

4
*■

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 3 of 8

action. The United States Marshal (sometimes referred to herein as
“Marshal”), or his or her representative, shall sell the Property and any
personal property (as set forth in Paragraph 9) “AS IS,” without any
warranties, general or implied.
b.

The sale shall be subject to all laws, ordinances, and governmental
regulations (including building and zoning ordinances) affecting the
premises, and easements and restrictions of record, if any.

c.

The sale shall be held at the United States District Court for the District of
Colorado, on the Property’s premises, or at any other place in accordance
with the provisions of 28 U.S.C. §§ 2001 and 2002, at a date and time
announced by the United States Marshal, or his or her representative.

d.

Notice of the sale shall be published once a week for at least four
consecutive weeks before the date fixed for the sale in at least one
newspaper regularly issued and of general circulation in the City and
County of Denver, Colorado, and, at the discretion of the Marshal, or his or
her representative, by any other notice that it may deem appropriate. State
or local law notice requirements for foreclosures or execution sales do not
apply to this sale under federal law, and state or local law regarding
redemption rights do not apply to this sale. The notice of sale shall
describe the Property and shall contain the material terms and conditions of
sale in this Order of Foreclosure and Judicial Sale.

e.

The minimum bid will be set by LNV as a credit bid on the amounts owed
3

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 4 of 8

LNV as set forth in the Court’s Orders of June 28, 2017 (ECF No. 320),
June 21, 2018 (ECF No. 404), and March 5, 2019 (ECF No. 436)
(collectively, the “Money Judgment”). LNV is authorized and permitted
to credit bid at the sale against the Money Judgment.
f.

Bidders (other than LNV) shall be required to deposit, at the time of sale
with the Marshal, or his or her representative, a minimum of 10 percent of
the bid, with the deposit to be made by a certified or cashier’s check payable
to the United States District Court for the District of Colorado. Before
being permitted to bid at the sale, bidders shall display to the Marshal, or his
or her representative, satisfactory proof of compliance with this
requirement.

g-

The balance of the purchase price of the Property in excess of the deposit
tendered shall be paid to the Marshal, or his or her representative, within 30
business days after the date the bid is accepted, by a certified or cashier’s
check payable to the United States District Court for the District of
Colorado. If the successful bidder or bidders fail to fulfill this
requirement, the deposit shall be forfeited and shall be applied to cover the
expenses of the sale, including commissions due under 28 U.S.C. § 1921(c),
with any amount remaining to be applied as described herein, below. The
Property shall be again offered for sale under the terms and conditions of
this Order of Foreclosure and Judicial Sale or, in the alternative, sold to the
second-highest bidder, as determined by the Marshal, or his or her

4

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 5 of 8

representative. LNV may bid as a credit against the Money Judgment
without tender of cash.
h.

The sale of the Property shall not be final until confirmed by this Court.
The Marshal, or his or her representative, shall file a report of sale with the
Court within 15 days from the date of receipt of the balance of the purchase
price.

i.

Upon confirmation of the sale by order of this Court, the Marshal, or his or
her representative, shall promptly execute and deliver a deed ofjudicial sale
conveying the Property to the purchaser(s).

J-

Upon confirmation of the sale by order of this Court, all right, title, lien,
claim, and interest in or to the Property including, but not limited to, those
held or asserted against the Property by any of the parties to this action and
any successors in interest or transferees of those parties shall be discharged
and extinguished, except as otherwise provided by applicable ordinance or
regulation of the City and County of Denver, State of Colorado, with
respect to liens in favor of such City and County.

k.

The sale is ordered pursuant to 28 U.S.C. § 2001. Redemption rights under
state or local law shall not apply to this sale under federal law.

1.

Upon confirmation of the sale by the Court, the purchaser or purchasers are
responsible for having the Recorder of Deeds cause the transfer of the
Property to be reflected in the county real property records.

8.

Until the Property is sold, M. Julia Hook and David L. Smith (hereafter, “Hook and
5

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 6 of 8

Smith”) shall take all reasonable steps necessary to preserve the Property (including all buildings,
improvements, fixtures, and appurtenances thereon) including, without limitation, maintaining fire
and casualty insurance policies on the Property. Hook and Smith shall keep current in paying real
property taxes as they are assessed. Hook and Smith shall not commit waste against the Property,
nor shall they cause or permit anyone else to do so. Hook and Smith shall not do anything that
tends to reduce the value or marketability of the Property, nor shall they cause or permit anyone
else to do so. Hook and Smith shall not record any instruments, publish any notice, or take any
other action that may directly or indirectly tend to adversely affect the value of the Property or that
may tend to deter or discourage potential bidders from participating in the public sale, nor shall
they cause or permit anyone else to do so. Violation of this paragraph shall be deemed a contempt
of Court and punishable as such.
9.

All persons occupying the Property shall leave and vacate permanently the

Property no later than 15 days after the entry of this Order of Foreclosure and Judicial Sale, each
taking with them his or her personal property (but leaving all improvements, buildings, fixtures,
and appurtenances) when leaving and vacating. If any person fails or refuses to leave the
Property by the time specified in this Order of Foreclosure and Judicial Sale, the United States
Marshal is authorized to take whatever action it deems appropriate, including using reasonable
force to enter into the Property and forcibly remove or eject such person or persons from the
premises.

The United States Marshal is further authorized and directed to arrest and/or evict

from the premises any and all persons who obstruct, attempt to obstruct, or interfere or attempt to
interfere in any way with the execution of this Order of Foreclosure and Judicial Sale. If any
person fails or refuses to remove his or her personal property from the Property by the time

6

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 7 of 8

specified herein, the personal property remaining at the Property thereafter is deemed forfeited and
abandoned, and the United States Marshal, or his or her representative, is authorized and directed
to remove and dispose of it in any manner they see fit, including sale, in which case the proceeds of
sale are to be applied first to the expenses of sale and the balance to be paid into the court registry
for further distribution.

10.

Notwithstanding the terms of the immediately preceding paragraph, if, after the

sale of the Property is confirmed by this Court, the Property remains occupied, a writ of assistance
may, without further notice, be issued by the Clerk of Court pursuant to Rule 70 of the Federal
Rules of Civil Procedure to compel delivery of possession of the Property to the purchaser or
purchasers thereof.
11.

If Hook and Smith or any other person occupying the Property vacate the Property

prior to the deadline set forth in Paragraph 9, above, such person shall notify counsel for LNV no
later than two (2) business days prior to vacating the Property of the date on which he or she is
vacating the Property. Notification shall be made by email to attorney Duncan Barber at
dbarber@sbbolaw.com.
12.

The Marshal shall deposit the amount paid by the purchaser into the registry of the

Court within 15 days of receipt.
13.

All funds tendered to the Court for deposit shall comply with Fed. R. Civ. P. 67 and

D.C.COLO.LCivR 67.2.
13.

Upon stipulation of the parties or by appropriate motion by LNV for disbursement

and confirmation of sale, filed in accordance with D.C.COLO.LCivR 67.2 within 30 days of the
completion of the sale of the Property, the Court will issue an order to disburse the funds in the

7

Case l:14-cv-00955-RM-SKC Document 443 Filed 04/05/19 USDC Colorado Page 8 of 8
»J

following order of preference until these expenses and liens are satisfied:
(a)

To LNV for allowed costs and expenses of sale, including any commissions due

under 28 U.S.C. § 1921 (c) and including an amount sufficient to cover the costs of any
steps taken to secure or maintain the Property pending sale and confirmation by the Court;
(b)

To LNV to satisfy or partially satisfy the amounts owed LNV as set forth in the

Court’s Orders of June 28,2017 (EOF No. 320), June 21,2018 (ECF No. 404), and March
5, 2019 (ECF No. 46);
(c)

To the United States of America to satisfy or partially satisfy the outstanding

federal tax liabilities of Hook and Smith, which are liens against the Property as set forth in
the Court’s March 14, 2017 Order (ECF No. 303); and
(d)

Any proceeds remaining after the above payments shall be held by the Clerk until

further of the Court upon motion filed by the parties.
SO ORDERED.
DATED this 5th day of April, 2019.
BY THE COURT:

RAYMOND P. MOORE
United States District Judge

8

*'

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 2, 2020
Christopher M. Wolpert
Clerk of Court

LNV CORPORATION,
Plaintiff - Appellee,

No. 19-1131
(D.C.No. 1:14-CV-00955-RM-SKC)
(D. Colo.)

v.

JULIA HOOK,
Defendant - Appellant,
and
UNITED STATES OF AMERICA,
Defendant - Appellee,
and
DAVID L. SMITH; PRUDENTIAL
HOME MORTAGAGE COMPANY,
INC.; SAINT LUKES LOFTS
HOMEOWNER ASSOCATION, INC.;
DEBRA JOHNSON, in her official
capacity as the Public Trustee of the City
and County of Denver, Colorado,
Defendants.

ORDER AND JUDGMENT*
* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

'X

€

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 2

Before BRISCOE, LUCERO, and HARTZ, Circuit Judges.

Julia Hook, an attorney representing herself, appeals from the district court’s
final judgment in a foreclosure action. Exercising jurisdiction under 28 U.S.C.
§ 1291, we dismiss this appeal as frivolous and deny Hook’s Motion to Proceed
In Forma Pauperis On Appeal.
LNV Corporation brought an action against Hook in the District Court for the
City and County of Denver, Colorado, seeking to foreclose a deed of trust on a piece
of real property she owned—a home. In addition to Hook, LNV named as defendants
several other parties potentially holding interests in the property, including the
Internal Revenue Service. LNV asked the court to determine the priorities of those
interests and to order a foreclosure sale of the property.
The United States (on behalf of the IRS) removed the action to the United
States District Court for the District of Colorado. LNV filed an amended complaint,
and in its answer the United States asserted a claim asking the district court to
consider its tax liens against the property when determining the priority of all liens
and to distribute any proceeds of the foreclosure sale in accordance with those
relative priorities. Hook and her husband, co-defendant David Smith, filed
counterclaims against LNV contesting, in relevant part, LNV’s right to foreclose on
the home. They also advanced claims against the United States, contesting their tax
liability and the tax liens.
2

'

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 3

The district court ultimately dismissed all of Hook’s claims and ruled in favor
of LNV on its claims against Hook and Smith, leaving to be decided only the manner
of judicial foreclosure and the amount of the judgment.
Although Hook and Smith filed a Chapter 7 bankruptcy petition, requiring the
district court to administratively close this case, the bankruptcy court granted LNV
relief from the automatic bankruptcy stay so the district court could proceed, and it
denied Hook and Smith’s motion to vacate the relief order. On the same day it
denied the motion to vacate, the bankruptcy court entered a discharge order relieving
Hook and Smith of their personal liability for certain debt but allowing “a creditor
with a lien [to] enforce a claim against [Hook and Smith’s] property subject to that
lien unless the lien was avoided or eliminated.” U.S. Supp. App. at 254. l
After reopening the case the district court eventually entered a final judgment
in favor of LNV and the United States and against Hook and Smith. The court also
ordered foreclosure and judicial sale of Hook and Smith’s home. Only Hook appeals.
Hook’s arguments on appeal, which for the most part contend that the district
court lacked jurisdiction and denied her due process, are wholly frivolous. As an
attorney, she should have known that they lacked any merit before she argued them;
and in large part, the appellees’ briefs make that perfectly clear. We see no need to
further educate Hook.

i

The discharge order did not end the bankruptcy case, but that case was
eventually closed.
3

1

Appellate Case: 19-1131

Document: 010110355365

Date Filed: 06/02/2020

Page: 4

We add only a word about Hook’s suggestion that the district judge was
hostile to and biased against her, in violation of her due-process rights. “To
demonstrate a violation of due process because of judicial bias, a claimant must show
either actual bias or an appearance of bias.” Bixler v. Foster, 596 F.3d 751, 762
(10th Cir. 2010) (internal quotation marks omitted). But “[ajdverse rulings alone do
not demonstrate judicial bias.” Id. Hook’s bias argument relies solely on the district
court’s adverse rulings and therefore is devoid of merit.
Because this appeal is frivolous, see Ford v. Pryor, 552 F.3d 1174, 1180
(10th Cir. 2008) (“An appeal is frivolous when the result is obvious, or the
appellant’s arguments of error are wholly without merit.” (internal quotation marks
omitted)), we dismiss the appeal and deny Ms. Hook’s Motion to Proceed In Forma
Pauperis On Appeal, see 28 U.S.C. § 1915(e)(2)(B)(i) (requiring dismissal of
frivolous appeal filed by party seeking to proceed IFP); DeBardeleben v. Quinlan,
937 F.2d 502, 505 (10th Cir. 1991) (grant of IFP requires “a reasoned, nonfrivolous
argument on the law and facts in support of the issues raised on appeal”).
Consequently, Ms. Hook must pay all appellate filing and docketing fees ($505.00)
immediately to the United States District Court for the District of Colorado.
Entered for the Court

Harris L Hartz
Circuit Judge

4

Case:17-16354-TBM Doc#:54 Filed:ll/08/17

Debtor 1

David Lee Smith
First Name

Debtor 2
(Spouse, if filing)

Entered:ll/08/17 08:17:31 Pagel of 2

Middle Name

Social Security number or ITIN
Last Name

EIN

Mary Julia Hook
First Name

Middle Name

xxx-xx-8123

Social Security number or ITIN
Last Name

xxx-xx-3612

EIN

United States Bankruptcy Court District of Colorado
Case number: 17-16354-TBM

Order of Discharge

12/15

IT IS ORDERED: A discharge under 11 U.S.C. § 727 is granted to:
David Lee Smith
aka David L. Smith, Attorney at Law

Mary Julia Hook
|
aka M. Julia Hook, Attorney at Law

11/8/17

By the court: Thomas B. McNamara
United! States Bankruptcy Judge

Explanation of Bankruptcy Discharge in a Chapter 7 Case
This order does not close or dismiss the case,
and it does not determine how much money, if
any, the trustee will pay creditors.
Creditors cannot collect discharged debts
This order means that no one may make any
attempt to collect a discharged debt from the
debtors personally. For example, creditors
cannot sue, garnish wages, assert a deficiency,
or otherwise try to collect from the debtors
personally on discharged debts. Creditors cannot
contact the debtors by mail, phone, or otherwise
in any attempt to collect the debt personally.
Creditors who violate this order can be required
to pay debtors damages and attorney's fees.
However, a creditor with a lien may enforce a
claim against the debtors' property subject to that
lien unless the lien was avoided or eliminated.
For example, a creditor may have the right to
foreclose a home mortgage or repossess an
automobile.

This order does not prevent debtors from paying
any debt voluntarily or\ from paying reaffirmed
debts according to the reaffirmation agreement.
11 U.S.C. § 524(c), (f)!
Most debts are discharged
Most debts are coverqjd by the discharge, but not
all. Generally, a discharge removes the debtors’
personal liability for debts owed before the
debtors' bankruptcy case was filed.
Also, if this case begap under a different chapter
of the Bankruptcy Codie and was later converted
to chapter 7, debts owed before the conversion
are discharged.
j
In a case involving community property: Special
rules protect certain community property owned
by the debtor's spous^, even if that spouse did
not file a bankruptcy case.

For more information, see page 2 >

Official Form 318 COB#177 b318_7

Order of Discharge

page 1

Case:17-16354-TBM Doc#:54 Filed:ll/08/17

Some debts are not discharged
Examples of debts that are not discharged are:

Entered:ll/08/17 08:17:31 Page2of2

Also, debts covered by a valid reaffirmation
agreement are not discharged.
In addition, this discharge does not stop
creditors from collecting from anyone else who is
also liable on the debt, such as an insurance
company or a person who cosigned or
guaranteed a loan.

♦ debts that are domestic support
obligations;
♦ debts for most student loans;
♦ debts for most taxes;
♦ debts that the bankruptcy court has
decided or will decide are not discharged
in this bankruptcy case;

This information is only a general summary
of the bankruptcy discharge; some
exceptions exist. Because the law is
complicated, you should consult an
attorney to determine the exact effect of the
discharge in this case.

♦ debts for most fines, penalties,
forfeitures, or criminal restitution
obligations;
♦ some debts which the debtors did not
properly list;
♦ debts for certain types of loans owed to
pension, profit sharing, stock bonus, or
retirement plans; and
♦ debts for death or personal injury caused
by operating a vehicle while intoxicated.

Official Form 318

Order of Discharge

page 2

8/13/2021

*

First Amendment [ U.S. Constitution | US Law J Lll / Legal Information Institute

First Amendment
The First Amendment guarantees freedoms concerning religion, expression,
assembly, and the right to petition. It forbids Congress from both promoting one
religion over others and also restricting an individual's religious practices. It
guarantees freedom of expression by prohibiting Congress from restricting the
press or the rights of individuals to speak freely. It also guarantees the right of
citizens to assemble peaceably and to petition theirgovernment.
Learn more...

Amendment I
Congress shall make no law respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of the press; or the right
of the people peaceably to assemble, and to petition the government for a redress of
grievances.
Wex Resources
First Amendment
The Establishment Clause
Establishment Clause
Lee v. Weisman (1992)
Van Orden v. Perry (2005)
Free Exercise Clause
Free Exercise Clause
State Action Requirement
Free Speech
Forums
Captive Audience
Prior Restraint
https://www.law.corneli.edu/constitution/first_ameridment

iXL

1/4

8/13/2021

Fifth Amendment | U.S. Constitution | US Law | Lll / Legal Information Institute

Fifth Amendment
The Fifth Amendment creates a number of rights relevant to both criminal and
civil legal proceedings. In criminal cases, the Fifth Amendment guarantees the
right to a grand jury, forbids "double jeopardy/' and protects against self­
incrimination. It also requires that "due process of law" be part of any
proceeding that denies a citizen "life, liberty or property" and requires the
government to compensate citizens when it takes private property for public use.

Learn more...

Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a grand jury, except in cases arising in the land or
naval forces, or in the militia, when in actual service in time of war or public danger;
nor shall any person be subject for the same offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just compensation.
Wex Resources
Fifth Amendment
Criminal Law / Criminal Procedure
Due Process
Substantive Due Process
Miranda Warning
Indictment
Privilege Against Self-Incrimination
Self-Incrimination
Grand Jury
July
Double Jeopardy
https://wwwJaw.cornell.edu/constitution/fjfth_amendrnent

1/3

8/13/2021

f '

Seventh Amendment | U.S. Constitution | US Law [ Lll / Legal Information Institute

Seventh Amendment
The Seventh Amendment continues a practice from English common law of
distinguishing civil claims which must be tried before a jury (absent waiver by
the parties) from claims and issues that may be heard by a judge alone. It only
governs federal civil courts and has no application to civil courts set up by the
states when those courts are hearing only disputes of state law.
Learn more...

Amendment VII
In suits at common law, where the value in controversy shall exceed twenty dollars,
the right of trial by jury shall be preserved, and no fact tried by a jury, shall be
otherwise reexamined in any court of the United States, than according to the rules of
the common law.
Wex Resources
• Criminal Law
• Criminal Procedure
* Jury
Other Resources
• US Code: Title 18
• Federal Rules of Criminal Procedure
< Sixth Amendment up Eighth Amendment >

https://www.law.cornell.edu/constitution/seventh_arnendment

1/3

8/13/2021

v

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law | Lll / Legal Information Institute

UI > U.S. Code > Title 11 > CHAPTER 5 > SUBCHAPTER II >§522

11 U.S. Code § 522 - Exemptions
U.S. Code

Notes

State Regulations

am

(a) In this section—
(!) "dependent" includes spouse, whether or not actually dependent;
and
(2) "value" means fair market value as of the date of the filing of the
petition or, with respect to property that becomes property of the
estate after such date, as of the date such property becomes property
of the estate.
(b)
(1) Notwithstanding section 541 of this title, an individual debtor may
exempt from property of the estate the property listed in either
paragraph (2) or, in the alternative, paragraph (3) of this subsection.
In joint cases filed under section 302 of this title and individual cases
filed under section 301 or 303 of this title by or against debtors who
are husband and wife, and whose estates are ordered to be jointly
administered under Rule 1015(b) of the Federal Rules of Bankruptcy
Procedure, one debtor may not elect to exempt property listed in
paragraph (2) and the other debtor elect to exempt property listed in
paragraph (3) of this subsection. If the parties cannot agree on the
alternative to be elected, they shall be deemed to elect paragraph (2),
where such election is permitted under the law of the jurisdiction
where the case is filed.

https://www.law.comell.edu/uscode/text/11/522

1/15

8/13/2021

>'

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law | Lll / Legal Information Institute

(2) Property listed in this paragraph is property that is specified under
subsection (d), unless the State law that is applicable to the debtor
under paragraph (3)(A) specifically does not so authorize.
(3) Property listed in this paragraph is—
(A) subject to subsections (o) and (p), any property that is exempt
under Federal law, other than subsection (d) of this section, or
State or local law that is applicable on the date of the filing of the
petition to the place in which the debtor's domicile has been located
for the 730 days immediately preceding the date of the filing of the
petition or if the debtor's domicile has not been located in a single
State for such 730-day period, the place in which the debtor's
domicile was located for 180 days immediately preceding the 730day period or for a longer portion of such 180-day period than in
any other place;
(B) any interest in property in which the debtor had, immediately
before the commencement of the case, an interest as a tenant by
the entirety or joint tenant to the extent that such interest as a
tenant by the entirety or joint tenant is exempt from process under
applicable nonbankruptcy law; and
(C) retirement funds to the extent that those funds are in a fund or
account that is exempt from taxation under section 401, 403, 408,
408A, 414, 457, or 501(a) of the Internal Revenue Code of 1986.
If the effect of the domiciliary requirement under subparagraph
(A) is to render the debtor ineligible for any exemption, the debtor
may elect to exempt property that is specified under subsection
(d).
(4) For purposes of paragraph (3)(C) and subsection (d)(12), the
following shall apply:
(A) If the retirement funds are in a retirement fund that has
received a favorable determination under section 7805 of the
Internal Revenue Code of 1986, and that determination is in effect
as of the date of the filing of the petition in a case under this title,
those funds shall be presumed to be exempt from the estate.
(B) If the retirement funds are in a retirement fund that has not
received a favorable determination under such section 7805, those
funds are exempt from the estate if the debtor demonstrates that—
https://www.law.comell.edu/uscode/texl/11/522

2/15

8/13/2021

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law | Lll / Legal Information Institute

(i) no prior determination to the contrary has been made by a
court or the Internal Revenue Service; and
(ii)
(I) the retirement fund is in substantial compliance with the
applicable requirements of the Internal Revenue Code of
1986; or
(II) the retirement fund fails to be in substantial compliance
with the applicable requirements of the Internal Revenue
Code of 1986 and the debtor is not materially responsible for
that failure.
(C) A direct transfer of retirement funds from 1 fund or account
that is exempt from taxation under section 401, 403, 408, 408A,
414, 457, or 501(a) of the Internal Revenue Code of 1986, under
section 401(a)(31) of the Internal Revenue Code of 1986, or
otherwise, shall not cease to qualify for exemption under paragraph
(3)(C) or subsection (d)(12) by reason of such direct transfer.
(D)
(i) Any distribution that qualifies as an eligible rollover
distribution within the meaning of section 402(c) of the Internal
Revenue Code of 1986 or that is described in clause (ii) shall not
cease to qualify for exemption under paragraph (3)(C) or
subsection (d)(12) by reason of such distribution.
(ii) A distribution described in this clause is an amount that—
(I) has been distributed from a fund or account that is
exempt from taxation under section 401, 403, 408, 408A,
414, 457, or 501(a) of the Internal Revenue Code of 1986;
and
(II) to the extent allowed by law, is deposited in such a fund
or account not later than 60 days after the distribution of
such amount.

(c) Unless the case is dismissed, property exempted under this section is
not liable during or after the case for any debt of the debtor that arose, or

https://www.law.cornell.edu/uscode/text/11/522

3/15

8/13/2021

11 U.S. Code § 522 - Exemptions | U.S. Code j US Law | Lll / Legal Information Institute

that is determined under section 502 of this title as if such debt had
arisen, before the commencement of the case, except—
(1) a debt of a kind specified in paragraph (1) or (5) of section 523(a)
(in which case, notwithstanding any provision of applicable
nonbankruptcy law to the contrary, such property shall be liable for a
debt of a kind specified in such paragraph);
(2) a debt secured by a lien that is—
(A)
(i) not avoided under subsection (f) or (g) of this section or
under section 544, 545, 547, 548, 549, or 724(a) of this title;
and
(ii) not void under section 506(d) of this title; or
(B) a tax lien, notice of which is properly filed;
(3) a debt of a kind specified in section 523(a)(4) or 523(a)(6) of this
title owed by an institution-affiliated party of an insured depository
institution to a Federal depository institutions regulatory agency acting
in its capacity as conservator, receiver, or liquidating agent for such
institution; or
(4) a debt in connection with fraud in the obtaining or providing of any
scholarship, grant, loan, tuition, discount, award, or other financial
assistance for purposes of financing an education at an institution of
higher education (as that term is defined in section 101 of the Higher
Education Act of 1965 (20 U.S.C. 1001)).
(d) The following property may be exempted under subsection (b)(2) of
this section:
(1) The debtor's aggregate interest, not to exceed $15,000^ in value,
in real property or personal property that the debtor or a dependent of
the debtor uses as a residence, in a cooperative that owns property
that the debtor or a dependent of the debtor uses as a residence, or in
a burial plot for the debtor or a dependent of the debtor.
(2) The debtor's interest, not to exceed $2,4001 in value, in one motor
vehicle.
(3) The debtor's interest, not to exceed $4001 in value in any
particular item or $8,0001 in aggregate value, in household
https://www.law.cornell.eclu/uscode/texl/11/522

4/15

8/13/2021

>

11 U.S. Code § 522 - Exemptions | U.S. Code J US Law | Lll / Legal Information Institute

furnishings, household goods, wearing apparel, appliances, books,
animals, crops, or musical instruments, that are held primarily for the
personal, family, or household use of the debtor or a dependent of the
debtor.
(4) The debtor's aggregate interest, not to exceed $1,000 1 in_value£ in
jewelry held primarily for the personal, family, or household use of the
debtor or a dependent of the debtor.
(5) The debtor's aggregate interest in any property, not to exceed in
value $8001 plus up to $7,5001 of any unused amount of the
exemption provided under paragraph (1) of this subsection.
(6) The debtor's aggregate interest, not to exceed $1,5001 in value, in
any implements, professional books, or tools, of the trade of the debtor
or the trade of a dependent of the debtor.
(7) Any unmatured life insurance contract owned by the debtor, other
than a credit life insurance contract.
(8) The debtor's aggregate interest, not to exceed in value $8,0001
less any amount of property of the estate transferred in the manner
specified in section 542(d) of this title, in any accrued dividend or
interest under, or loan value of, any unmatured life insurance contract
owned by the debtor under which the insured is the debtor or an
individual of whom the debtor is a dependent.
(9) Professionally prescribed health aids for the debtor or a dependent
of the debtor.
(10) The debtor's right to receive—
(A) a social security benefit, unemployment compensation, or a
local public assistance benefit;
(B) a veterans' benefit;
(C) a disability, illness, or unemployment benefit;
(D) alimony, support, or separate maintenance, to the extent
reasonably necessary for the support of the debtor and any
dependent of the debtor;
(E) a payment under a stock bonus, pension, profitsharing, annuity,
or similar plan or contract on account of illness, disability, death,

https://www.law.cornell.edu/uscode/text/11/522

5/15

8/13/2021

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law | Lll / Legal Information Institute

age, or length of service, to the extent reasonably necessary for the
support of the debtor and any dependent of the debtor, unless—
(i) such plan or contract was established by or under the
auspices of an insider that employed the debtor at the time the
debtor's rights under such plan or contract arose;
(ii) such payment is on account of age or length of service; and
(iii) such plan or contract does not qualify under section 401(a),
403(a), 403(b), or 408 of the Internal Revenue Code of 1986.
(11) The debtor's right to receive, or property that is traceable to—
(A) an award under a crime victim's reparation law;
(B) a payment on account of the wrongful death of an individual of
whom the debtor was a dependent, to the extent reasonably
necessary for the support of the debtor and any dependent of the
debtor;
(C) a payment under a life insurance contract that insured the life
of an individual of whom the debtor was a dependent on the date of
such individual's death, to the extent reasonably necessary for the
support of the debtor and any dependent of the debtor;
(D) a payment, not to exceed $15,000,1 on account of personal
bodily injury, not including pain and suffering or compensation for
actual pecuniary loss, of the debtor or an individual of whom the
debtor is a dependents or
(E) a payment in compensation of loss of future earnings of the
debtor or an individual of whom the debtor is or was a dependent,
to the extent reasonably necessary for the support of the debtor
and any dependent of the debtor.
(12) Retirement funds to the extent that those funds are in a fund or
account that is exempt from taxation under section 401, 403, 408,
408A, 414, 457, or 501(a) of the Internal Revenue Code of 1986.
(e) A waiver of an exemption executed in favor of a creditor that holds an
unsecured claim against the debtor is unenforceable in a case under this
title with respect to such claim against property that the debtor may
exempt under subsection (b) of this section. A waiver by the debtor of a
https://www.law.MrnelI.edu/uscode/text/11/522

6/15

8/13/2021

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law | Lll / Legal Information Institute

power under subsection (f) or (h) of this section to avoid a transfer, under
subsection (g) or (i) of this section to exempt property, or under
subsection (i) of this section to recover property or to preserve a transfer,
is unenforceable in a case under this title.
(f)
(1) Notwithstanding any waiver of exemptions but subject to
paragraph (3), the debtor may avoid the fixing of a lien on an interest
of the debtor in property to the extent that such lien impairs an
exemption to which the debtor would have been entitled under
subsection (b) of this section, if such lien is—
(A) a judicial lien, other than a judicial lien that secures a debt of a
kind that is specified in section 523(a)(5); or
(B) a nonpossessory, nonpurchase-money security interest in any—
(i) household furnishings, household goods, wearing apparel,
appliances, books, animals, crops, musical instruments, or
jewelry that are held primarily for the personal, family, or
household use of the debtor or a dependent of the debtor;
(ii) implements, professional books, or tools, of the trade of the
debtor or the trade of a dependent of the debtor; or
(iii) professionally prescribed health aids for the debtor or a
dependent of the debtor.

(2)
(A) For the purposes of this subsection, a lien shall be considered
to impair an exemption to the extent that the sum of—
(i) the lien;
(ii) all other liens on the property; and
(iii) the amount of the exemption that the debtor could claim if
there were no liens on the property;
exceeds the value that the debtor's interest in the property
would have in the absence of any liens.
(B) In the case of a property subject to more than 1 lien, a lien
that has been avoided shall not be considered in making the
https://www.law.comell.edu/uscodeAexl/11/522

7/15

8/13/2021

'

11 U.S. Code § 522 - Exemptions) U.S. Code | US Law | Lll / Legal Information Institute

calculation under subparagraph (A) with respect to other liens.
(C) This paragraph shall not apply with respect to a judgment
arising out of a mortgage foreclosure.
(3) In a case in which State law that is applicable to the debtor—
(A) permits a person to voluntarily waive a right to claim
exemptions under subsection (d) or prohibits a debtor from
claiming exemptions under subsection (d); and
(B) either permits the debtor to claim exemptions under State law
without limitation in amount, except to the extent that the debtor
has permitted the fixing of a consensual lien on any property or
prohibits avoidance of a consensual lien on property otherwise
eligible to be claimed as exempt property;
the debtor may not avoid the fixing of a lien on an interest of the
debtor or a dependent of the debtor in property if the lien is a
nonpossessory, nonpurchase-money security interest in
implements, professional books, or tools of the trade of the debtor
or a dependent of the debtor or farm animals or crops of the
debtor or a dependent of the debtor to the extent the value of
such implements, professional books, tools of the trade, animals,
and crops exceeds $5,000.1
(4)
(A) Subject to subparagraph (B), for purposes of paragraph (1)(B),
the term "household goods" means—
(i) clothing;
(ii) furniture;
(iii) appliances;
(iv) 1 radio;

(v) 1 television;
(vi) 1 VCR;
(vii) linens;
(viii) china;
https://www.law.cornell.edu/uscode/text/11/522

8/15

8/13/2021

’

11 U.S. Cod© § 522 - Exemptions | U.S. Code | US Law | Ul / Legal Information Institute

(ix) crockery;
(x) kitchenware;
(xi) educational materials and educational equipment primarily
for the use of minor dependent children of the debtor;
(xii) medical equipment and supplies;
(xiii) furniture exclusively for the use of minor children, or
elderly or disabled dependents of the debtor;
(xiv) personal effects (including the toys and hobby equipment
of minor dependent children and wedding rings) of the debtor
and the dependents of the debtor; and
(xv) 1 personal computer and related equipment.
(B) The term "household goods" does not include—
(i) works of art (unless by or of the debtor, or any relative of
the debtor);
(ii) electronic entertainment equipment with a fair market value
of more than $5001 in the aggregate (except 1 television, 1
radio, and 1 VCR);
(iii) items acquired as antiques with a fair market value of
more than $5001 in the aggregate;
(iv) jewelry with a fair market value of more than $5001 in the
aggregate (except wedding rings); and
(v) a computer (except as otherwise provided for in this
section), motor vehicle (including a tractor or lawn tractor),
boat, or a motorized recreational device, conveyance, vehicle,
watercraft, or aircraft.

(g) Notwithstanding sections 550 and 551 of this title, the debtor may
exempt under subsection (b) of this section property that the trustee
recovers under section 510(c)(2), 542, 543, 550, 551, or 553 of this title,
to the extent that the debtor could have exempted such property under
subsection (b) of this section if such property had not been transferred, if

https://www.law.comell.edu/uscode/text/11/522

9/15

8/13/2021

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law | Lll / Legal Information Institute

(1)
(A) such transfer was not a voluntary transfer of such property by
the debtor; and
(B) the debtor did not conceal such property; or
(2) the debtor could have avoided such transfer under subsection (f)
(1)(B) of this section.
(h) The debtor may avoid a transfer of property of the debtor or recover a
setoff to the extent that the debtor could have exempted such property
under subsection (g)(1) of this section if the trustee had avoided such
transfer, if—
(1) such transfer is avoidable by the trustee under section 544, 545,
547, 548, 549, or 724(a) of this title or recoverable by the trustee
under section 553 of this title; and
(2) the trustee does not attempt to avoid such transfer.

(0
(1) If the debtor avoids a transfer or recovers a setoff under
subsection (f) or (h) of this section, the debtor may recover in the
manner prescribed by, and subject to the limitations of, section 550 of
this title, the same as if the trustee had avoided such transfer, and
may exempt any property so recovered under subsection (b) of this
section.
(2) Notwithstanding section 551 of this title, a transfer avoided under
section 544, 545, 547, 548, 549, or 724(a) of this title, under
subsection (f) or (h) of this section, or property recovered under
section 553 of this title, may be preserved for the benefit of the debtor
to the extent that the debtor may exempt such property under
subsection (g) of this section or paragraph (1) of this subsection.
(j) Notwithstanding subsections (g) and (i) of this section, the debtor may
exempt a particular kind of property under subsections (g) and (i) of this
section only to the extent that the debtor has exempted less property in
value of such kind than that to which the debtor is entitled under
subsection (b) of this section.

https://www.law.comell.edLi/uscode/text/11/522

10/15

8/13/2021

1

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law J Lll / Legal Information institute

(k) Property that the debtor exempts under this section is not liable for
payment of any administrative expense except—
(1) the aliquot share of the costs and expenses of avoiding a transfer
of property that the debtor exempts under subsection (g) of this
section, or of recovery of such property, that is attributable to the value
of the portion of such property exempted in relation to the value of the
property recovered; and
(2) any costs and expenses of avoiding a transfer under subsection (f)
or (h) of this section, or of recovery of property under subsection (i)(l)
of this section, that the debtor has not paid.
(I) The debtor shall file a list of property that the debtor claims as exempt
under subsection (b) of this section. If the debtor does not file such a list,
a dependent of the debtor may file such a list, or may claim property as
exempt from property of the estate on behalf of the debtor. Unless a party
in interest objects, the property claimed as exempt on such list is exempt.
(m) Subject to the limitation in subsection (b), this section shall apply
separately with respect to each debtor in a joint case.
(n) For assets in individual retirement accounts described in section 408
or 408A of the Internal Revenue Code of 1986, other than a simplified
employee pension under section 408(k) of such Code or a simple
retirement account under section 408(p) of such Code, the aggregate
value of such assets exempted under this section, without regard to
amounts attributable to rollover contributions under section 402(c), 402(e)
(6), 403(a)(4), 403(a)(5), and 403(b)(8) of the Internal Revenue Code of
1986, and earnings thereon, shall not exceed $1,000,0001 in a case filed
by a debtor who is an individual, except that such amount may be
increased if the interests of justice so require.
(o) For purposes of subsection (b)(3)(A), and notwithstanding subsection
(a), the value of an interest in­
ti) real or personal property that the debtor or a dependent of the
debtor uses as a residence;
(2) a cooperative that owns property that the debtor or a dependent of
the debtor uses as a residence;
(3) a burial plot for the debtor or a dependent of the debtor; or

https://www.law.comell.edu/uscode/text/11/522

11/15

0/13/2021

11 U.S. Code § 522 - Exemptions | U.S. Code | US Law | Lll / Legal Information Institute

(4) real or personal property that the debtor or a dependent of the
debtor claims as a homestead;
shall be reduced to the extent that such value is attributable to any
portion of any property that the debtor disposed of in the 10-year
period ending on the date of the filing of the petition with the intent
to hinder, delay, or defraud a creditor and that the debtor could not
exempt, or that portion that the debtor could not exempt, under
subsection (b), if on such date the debtor had held the property so
disposed of.

(p)
(1) Except as provided in paragraph (2) of this subsection and sections
544 and 548, as a result of electing under subsection (b)(3)(A) to
exempt property under State or local law, a debtor may not exempt
any amount of interest that was acquired by the debtor during the
1215-day period preceding the date of the filing of the petition that
exceeds in the aggregate $125,000 1 in value in—
(A) real or personal property that the debtor or a dependent of the
debtor uses as a residence;
(B) a cooperative that owns property that the debtor or a
dependent of the debtor uses as a residence;
(C) a burial plot for the debtor or a dependent of the debtor; or
(D) real or personal property that the debtor or dependent of the
debtor claims as a homestead.
(2)
(A) The limitation under paragraph (1) shall not apply to an
exemption claimed under subsection (b)(3)(A) by a family farmer
for the principal residence of such farmer.
(B) For purposes of paragraph (1), any amount of such interest
does not include any interest transferred from a debtor's previous
principal residence (which was acquired prior to the beginning of
such 1215-day period) into the debtor's current principal residence,
if the debtor's previous and current residences are located in the
same State.

https://www.law.corneH.edu/uscode/text/11/522

12/15

8/13/2021

11 U.S. Code § 522 - Exemptions | U.S. Code f US Law | Lll / Legal Information Institute

(q)
(1) As a result of electing under subsection (b)(3)(A) to exempt
property under State or local law, a debtor may not exempt any
amount of an interest in property described in subparagraphs (A), (B),
(C), and (D) of subsection (p)(l) which exceeds in the aggregate
$125,000 1 if—
(A) the court determines, after notice and a hearing, that the
debtor has been convicted of a felony (as defined in section 3156 of
title 18), which under the circumstances, demonstrates that the
filing of the case was an abuse of the provisions of this title; or
(B) the debtor owes a debt arising from—
(i) any violation of the Federal securities laws (as defined in
section 3(a)(47) of the Securities Exchange Act of 1934), any
State securities laws, or any regulation or order issued under
Federal securities laws or State securities laws;
(ii) fraud, deceit, or manipulation in a fiduciary capacity or in
connection with the purchase or sale of any security registered
under section 12 or 15(d) of the Securities Exchange Act of
1934 or under section 6 of the Securities Act of 1933;
(iii) any civil remedy under section 1964 of title 18; or
(iv) any criminal act, intentional tort, or willful or reckless
misconduct that caused serious physical injury or death to
another individual in the preceding 5 years.

(2) Paragraph (1) shall not apply to the extent the amount of an
interest in property described in subparagraphs (A), (B), (C), and (D)
of subsection (p)(l) is reasonably necessary for the support of the
debtor and any dependent of the debtor.
(Pub. L. 95-598, Nov. 6, 1978, 92 Stat. 2586; Pub. L. 98-353, title III,
§§306, 453, July 10, 1984, 98 Stat. 353, 375; Pub. L. 99-554, title II,
§283(0, Oct. 27, 1986, 100 Stat. 3117; Pub. L. 101-647, title XXV,
§ 2522(b), Nov. 29, 1990, 104 Stat. 4866; Pub. L. 103-394, title I, § 108(d),
title III, §§ 303, 304(d), 310, title V, § 501(d)(12), Oct. 22, 1994, 108Stat,
4112, 4132, 4133, 4137, 4145; Pub. L. 106-420, §4, Nov. 1, 2000, 114 Stat.
1868; Pub. L. 109-8, title II, §§216, 224(a), (e)(1), title III, §§307, 308,

https://www.law.comell.edu/uscode/texl/11/522

13/15

8/13/2021

‘

11 U.S. Code § 524 - Effect of discharge | U.S. Code | US Law | Ul / Legal Information Institute

LII > U.S. Code > Title 11 > CHAPTER 5 > SUBCHAPTER II >§524

11 U.S. Code § 524 - Effect of discharge
U.S. Code

Notes

State Regulations

(a) A discharge in a case under this title—
(1) voids any judgment at any time obtained, to the extent that such
judgment is a determination of the personal liability of the debtor with
respect to any debt discharged under section 727, 944, 1141, 1192,
1228, or 1328 of this title, whether or not discharge of such debt is
waived;
(2) operates as an injunction against the commencement or
continuation of an action, the employment of process, or an act, to
collect, recover or offset any such debt as a personal liability of the
debtor, whether or not discharge of such debt is waived; and
(3) operates as an injunction against the commencement or
continuation of an action, the employment of process, or an act, to
collect or recover from, or offset against, property of the debtor of the
kind specified in section 541(a)(2) of this title that is acquired after the
commencement of the case, on account of any allowable community
claim, except a community claim that is excepted from discharge under
section 523, 1192, 1228(a)(1), or 1328(a)(1), or that would be so
excepted, determined in accordance with the provisions of sections
523(c) and 523(d) of this title, in a case concerning the debtor's
spouse commenced on the date of the filing of the petition in the case
concerning the debtor, whether or not discharge of the debt based on
such community claim is waived.

https://www.law.cornell.edU/uscode/text/11/524

1/21

0/13/2021

’

15 U.S. Code § 1648 - Reverse mortgages | U.S. Code | US Law | Lll / Legal Information Institute

15 U.S. Code § 1648 - Reverse mortgages
U.S. Code

Notes

(a) In

general

In addition to the disclosures required under this subchapter, for each
reverse mortgage, the creditor shall, not less than 3 days prior to
consummation of the transaction, disclose to the consumer in
conspicuous type a good faith estimate of the projected total cost of
the mortgage to the consumer expressed as a table of annual interest
rates. Each annual interest rate shall be based on a projected total
future credit extension balance under a projected appreciation rate for
the dwelling and a term for the mortgage. The disclosure shall include

(1) statements of the annual interest rates for not less than 3
projected appreciation rates and not less than 3 credit transaction
periods, as determined by the Bureau, including—
(A) a short-term reverse mortgage;
(B) a term equaling the actuarial life expectancy of the consumer;
and
(C) such longer term as the Bureau deems appropriate; and
(2) a statement that the consumer is not obligated to complete the
reverse mortgage transaction merely because the consumer has
received the disclosure required under this section or has signed an
application for the reverse mortgage.
(b) Projected

total cost

In determining the projected total cost of the mortgage to be
disclosed to the consumer under subsection (a), the creditor shall take
https://www.law.cornell.edu/uscode/text/15/1648

1/4

,x T-

8/13/2021

*

15 U.S. Code § 1648 - Reverse mortgages | U.S. Code | US Law | Lll (Legal Information Institute

into account—
(1) any shared appreciation or equity that the lender will, by contract,
be entitled to receive;
(2) all costs and charges to the consumer, including the costs of any
associated annuity that the consumer elects or is required to purchase
as part of the reverse mortgage transaction;
(3) all payments to and for the benefit of the consumer, including, in
the case in which an associated annuity is purchased (whether or not
required by the lender as a condition of making the reverse mortgage),
the annuity payments received by the consumer and financed from the
proceeds of the loan, instead of the proceeds used to finance the
annuity; and
(4) any limitation on the liability of the consumer under reverse
mortgage transactions (such as nonrecourse limits and equity
conservation agreements).
(Pub. L. 90-321, title I, 5 138f as added Pub. L. 103-325, title I, 5 154(b).
Sept. 23, 1994, 108 Stat. 2196; amended Pub. L. 111-203, title X,
§ 1100A(2), July 21, 2010, 124 Stat. 2107.)

U.S. Code Toolbox
Law about... Articles from Wex
Table of Popular Names
Parallel Table of Authorities
How current is this?

6

https://www.law.comell.edu/uscode/text/15/1648

2/4

8/13/2021

'

26 U.S. Code § 6334 - Property exempt from levy | U.S. Code | US Law | Ltl / Legal Information Institute

26 U.S. Code § 6334 - Property exempt from levy
U.S. Code

Notes

(a) Enumeration
There shall be exempt from levy—
(1) Wearing apparel and school books
Such items of wearing apparel and such school books as are necessary
for the taxpayer or for members of his family;
(2) Fuel, provisions, furniture, and personal effects
So much of the fuel, provisions, furniture, and personal effects in the
taxpayer's household, and of the arms foj* personal use, livestock, and
poultry of the taxpayer, as does not exceed $6,250 in value;
(3) Books and tools of a trade, business, or profession
So many of the books and tools necessary for the trade, business, or
profession of the taxpayer as do not exceed in the aggregate $3,125 in
value.
(4) Unemployment benefits
Any amount payable to an individual with respect to his unemployment
(including any portion thereof payable with respect to dependents)
under an unemployment compensation law of the United States, of any
State, or of the District of Columbia or of the Commonwealth of Puerto
Rico.
(5) Undelivered mail
Mail, addressed to any person, which has not been delivered to the
addressee.

https://www.law.cornell.edu/uscode/text/26/6334

K

1/9

8/13/2021

26 U.S. Code § 6334 - Property exempt from levy | U.S. Code | US Law | Lll / Legal Information Institute

(6) Certain annuity and pension payments
Annuity or pension payments under the Railroad Retirement Act,
benefits under the Railroad Unemployment Insurance Act, special
pension payments received by a person whose name has been entered
on the Army, Navy, Air Force, and Coast Guard Medal of Honor roll (38
U.S.C. 1562), and annuities based on retired or retainer pay under
chapter 73 of title 10 of the United States Code.
(7) Workmen's compensation
Any amount payable to an individual as workmen's compensation
(including any portion thereof payable with respect to dependents)
under a workmen's compensation law of the United States, any State,
the District of Columbia, or the Commonwealth of Puerto Rico.
(8) Judgments for support of minor children
If the taxpayer is required by judgment of a court of competent
jurisdiction, entered prior to the date of levy, to contribute to the
support of his minor children, so much of his salary, wages, or other
income as is necessary to comply with such judgment.
(9) Minimum exemption for wages, salary, and other income
Any amount payable to or received by an individual as wages or salary
for personal services, or as income derived from other sources, during
any period, to the extent that the total of such amounts payable to or
received by him during such period does not exceed the applicable
exempt amount determined under subsection (d).
(10) Certain service-connected disability payments
Any amount payable to an individual as a service-connected (within
the meaning of section 101(16) of title 38, United States Code)
disability benefit under—
(A) subchapter II, III, IV, V, or VI of chapter 11 of such title 38, or
(B) chapter 13, 21, 23, 31, 32, 34, 35, 37, or 39 of such title 38.
(11) Certain public assistance payments
Any amount payable to an individual as a recipient of public
assistance under—
(A) title IV or title XVI (relating to supplemental security income for
the aged, blind, and disabled) of the Social Security Act, or
https://www.law.cornell.edu/uscode/text/26/6334

2/9

8/13/2021 '

26 U.S. Code § 6334 - Property exempt from levy | U.S. Code | US Law j Lll / Legal Information Institute

(B) State or local government public assistance or public welfare
programs for which eligibility is determined by a needs or income
test.
(12) Assistance under Job Training Partnership Act
Any amount payable to a participant under the Job Training Partnership
Act (29 U.S.C. 1501 et seq.) from funds appropriated pursuant to such
Act.
(13) Residences

exempt in small deficiency cases and

principal residences and certain business assets exempt in

ABSENCE OF CERTAIN APPROVAL OR JEOPARDY

(A) Residences in small deficiency cases
If the amount of the levy does not exceed $5,000—
(i) any real property used as a residence by the taxpayer; or
(ii) any real property of the taxpayer (other than real property
which is rented) used by any other individual as a residence.
(B) Principal residences and certain business assets
Except to the extent provided in subsection (e)—
(i) the principal residence of the taxpayer (within the meaning of
section 121); and
(ii) tangible personal property or real property (other than real
property which is rented) used in the trade or business of an
individual taxpayer.

(b) Appraisal
The officer seizing property of the type described in subsection (a) shall
appraise and set aside to the owner the amount of such property declared
to be exempt. If the taxpayer objects at the time of the seizure to the
valuation fixed by the officer making the seizure, the Secretary shall
summon three disinterested individuals who shall make the valuation.
(C) NO OTHER PROPERTY EXEMPT

Notwithstanding any other law of the United States (including section 207
of the Social Security Act), no property or rights to property shall be
exempt from levy other than the property specifically made exempt by
https://www.law.comell.edu/uscode/text/26/6334

3/9

8/13/2021

26 U.S. Code § 6334 - Property exempt from levy | U.S. Code | US Law | Lll / Legal Information Institute

subsection (a).
(d) Exempt amount

of wages, salary, or other income

(1) Individuals on weekly basis
In the case of an individual who is paid or receives all of his wages,
salary, and other income on a weekly basis, the amount of the wages,
salary, and other income payable to or received by him during any
week which is exempt from levy under subsection (a)(9) shall be the
exempt amount.
(2) Exempt

amount

For purposes of paragraph (1), the term "exempt amount" means
an amount equal to—
(A) the sum of—
(i) the standard deduction, and
(ii) the aggregate amount of the deductions for personal
exemptions allowed the taxpayer under section 151 in the
taxable year in which such levy occurs, divided by
(B) 52.
Unless the taxpayer submits to the Secretary a written and
properly verified statement specifying the facts necessary to
determine the proper amount under subparagraph (A),
subparagraph (A) shall be applied as if the taxpayer were a married
individual filing a separate return with only 1 personal exemption.
(3) Individuals on basis other than weekly
In the case of any individual not described in paragraph (1), the
amount of the wages, salary, and other income payable to or received
by him during any applicable pay period or other fiscal period (as
determined under regulations prescribed by the Secretary) which is
exempt from levy under subsection (a)(9) shall be an amount
(determined under such regulations) which as nearly as possible will
result in the same total exemption from levy for such individual over a
period of time as he would have under paragraph (1) if (during such
period of time) he were paid or received such wages, salary, and other
income on a regular weekly basis.
(4) Years

when personal exemption amount is zero

https://www.law.comell.edu/uscode/text/26/6334

4/9

8/13/2021 ’

26 U.S. Cod© § 6334 - Property exempt from levy | U.S. Code | US Law | Lll / Legal Information Institute

(A) In general
In the case of any taxable year in which the exemption amount
under section 151(d) is zero, paragraph (2) shall not apply and
for purposes of paragraph (1) the term "exempt amount" means
an amount equal to—
(i) the sum of the amount determined under subparagraph (B)
and the standard deduction, divided by
(ID 52.
(B) Amount determined
For purposes of subparagraph (A), the amount determined under
this subparagraph is $4,150 multiplied by the number of the
taxpayer's dependents for the taxable year in which the levy occurs.
(C) Inflation adjustment
In the case of any taxable year beginning in a calendar year
after 2018, the $4,150 amount in subparagraph (B) shall be
increased by an amount equal to—
(i) such dollar amount, multiplied by
(ii) the cost-of-living adjustment determined under section 1(f)
(3) for the calendar year in which the taxable year begins,
determined by substituting "2017" for "2016" in subparagraph
(A)(ii) thereof.
If any increase determined under the preceding sentence is not
a multiple of $100, such increase shall be rounded to the next
lowest multiple of $100.
(D) Verified statement
Unless the taxpayer submits to the Secretary a written and properly
verified statement specifying the facts necessary to determine the
proper amount under subparagraph (A), subparagraph (A) shall be
applied as if the taxpayer were a married individual filing a separate
return with no dependents.

(e) Levy

allowed on principal residences and certain business

ASSETS IN CERTAIN CIRCUMSTANCES

(1) Principal
https://www.law.cornell.edu/uscode/text/26/6334

residences
5/9

8/13/2021

*

26 U.S. Code § 6334 - Property exempt from levy | U.S. Code | US Law | Lll / Legal Information Institute

(A) Approval required
A principal residence shall not be exempt from levy if a judge or
magistrate of a district court of the United States approves (in
writing) the levy of such residence.
(B) Jurisdiction
The district courts of the United States shall have exclusive
jurisdiction to approve a levy under subparagraph (A).
(2) Certain business assets

Property (other than a principal residence) described in subsection
(a)(13)(B) shall not be exempt from levy if—
(A) a district director or assistant district director of the Internal
Revenue Service personally approves (in writing) the Jevy of such
property; or
(B) the Secretary finds that the collection of tax is in jeopardy.
An official may not approve a levy under subparagraph (A) unless
the official determines that the taxpayer's other assets subject to
collection are insufficient to pay the amount due, together with
expenses of the proceedings.
(f) Levy allowed on certain specified payments
Any payment described in subparagraph (B) or (C) of section 6331(h)(2)
shall not be exempt from levy if the Secretary approves the levy thereon
under section 6331(h).
(g) Inflation
(1) In

adjustment

general

In the case of any calendar year beginning after 1999, each dollar
amount referred to in paragraphs (2) and (3) of subsection (a)
shall be increased by an amount equal to—
(A) such dollar amount, multiplied by
(B) the cost-of-living adjustment determined under section 1(f)(3)
for such calendar year, by substituting "calendar year 1998" for
"calendar year 2016" in subparagraph (A)(ii) thereof.

https://www.law.comell.edu/uscode/text/26/6334

6/9

8/13/2021

*

26 U.S. Code § 6334 - Property exempt from levy | U.S. Code | US Law | Lll / Legal Information Institute

(2) Rounding
If any dollar amount after being increased under paragraph (1) is not a
multiple of $10, such dollar amount shall be rounded to the nearest
multiple of $10.

(Aug. 16, 1954, ch. 736, 68A Stat. 784; Pub. L. 85-840, title IV, 5406. Aug.
28, 1958, 72 Stat. 1047; Pub. L. 89-44, title VIII. 5 812(a). June 21, 1965,
79 Stat. 170; Pub. L. 89-719, title I, 5 104(c), Nov. 2, 1966, 80 Stat. 1137;
Pub. L. 91-172, title IX, § 945(a), Dec. 30, 1969, 83 Stat. 729; Pub. L. 94455, title XII, §1209(a)-(c), title XIX, § 1906(b)(13)(A), Oct. 4, 1976, 90
Stat. 1709, 1710, 1834; Pub. L. 97-248, title III, 5 347(a), Sept. 3, 1982, 96
Stat, 638; Pub. L. 98-369, div. B, title VI, §2661(o)(5), July 18, 1984, 98
Stat. 1159; Pub. L. 99-514, title XV, § 1565(a), Oct. 22, 1986, 100 Stat™
2763; Pub. L. 100-647, title I, 5 1015(o), title VI, § 6236(c), Nov. 10, 1988,
102 Stat. 3572, 3738; Pub. L. 102-83, § 5(c)(2), Aug. 6, 1991, 105 Stat.
406; Pub. L. 104-168, title V, 5 502(a)-(c), July 30, 1996, 110 Stat. 1461;
Pub. L. 104-193, title I, 5 110(/)(3). formerly § 110(/)(6), Aug. 22, 19967110
Stat. 2173, renumbered and amended Pub. L. 105-33, title V, § 5514(a)(2).
(3), Aug. 5, 1997, 111 Stat. 620; Pub, L. 105-34, title III, § 312(d)(1), title X,
§ 1025(a), Aug. 5, 1997, 111 Stat. 839, 924; Pub. L. 105-206, title III,
§§ 3431(a)-(c), 3445(a), (b), July 22, 1998, 112 Stat. 758, 762, 763; Pub. L.
115-97, title I, §§ 11002(d)(1)(H), 11041(d), Dec. 22, 2017, 131 Stat. 2060,
2084; Pub. L. 115-141, div. U, title IV, § 401(a)(283), Mar. 23, 2018, 132
Stat. 1198.)

£ U.S. Code Toolbox
Law about... Articles from Wex
Table of Popular Names
Parallel Table of Authorities
How current is this?
https://www.law.comeU.edu/uscode/text/26/6334

7/9

8/13/2021

*

26 U.S. Code § 7403 - Action to enforce lien or to subject property to payment of tax | U.S. Code | US Law | Lll / Legal Information Institute

26 U.S. Code §7403. Action to enforce lien or to subject
property to payment of tax
U.S. Code

Notes

(a) Filing
In any case where there has been a refusal or neglect to pay any tax, or to
discharge any liability in respect thereof, whether or not levy has been
made, the Attorney General or his delegate, at the request of the
Secretary, may direct a civil action to be filed in a district court of the
United States to enforce the lien of the United States under this title with
respect to such tax or liability or to subject any property, of whatever
nature, of the delinquent, or in which he has any right, title, or interest, to
the payment of such tax or liability. For purposes of the preceding
sentence, any acceleration of payment under section 6166(g) shall be
treated as a neglect to pay tax.
(b) Parties
All persons having liens upon or claiming any interest in the property
involved in such action shall be made parties thereto.
(c) Adjudication and decree
The court shall, after the parties have been duly notified of the action,
proceed to adjudicate all matters involved therein and finally determine the
merits of all claims to and liens upon the property, and, in all cases where
a claim or interest of the United States therein is established, may decree
a sale of such property, by the proper officer of the court, and a
distribution of the proceeds of such sale according to the findings of the
court in respect to the interests of the parties and of the United States. If
the property is sold to satisfy a first lien held by the United States, the
United States may bid at the sale such sum, not exceeding the amount of
such lien with expenses of sale, as the Secretary directs.
https://www.law.cornell.edu/uscode/text/26/7403

1/4

8/13/2021

26 U.S. Code § 7403 - Action to enforce lien or to subject property to payment of tax | U.S. Code | US Law | LN / Legal Information Institute

(d) Receivership
In any such proceeding, at the instance of the United States, the court
may appoint a receiver to enforce the lien, or, upon certification by the
Secretary during the pendency of such proceedings that it is in the public
interest, may appoint a receiver with all the powers of a receiver in equity.
(Aug. 16, 1954, ch. 736, 68A Stat. 874; Pub. L. 89-719, title I, § 107(b), Nov.
2, 1966, 80 Stat. 1140; Pub. L. 94-455, title XIX, § 1906(b)(13)(A7rtit:le XX,
§ 2004(f)(2), Oct. 4, 1976, 90 Stat. 1834, 1872; Pub. L. 97-34, title IV.
5422(e)(8), Aug. 13, 1981, 95 Stat. 316.)

U.S. Code Toolbox
Law about... Articles from Wex
Table of Popular Names
Parallel Table of Authorities
How current is this?

17

https://www.law.cornell.edu/uscode/text/26/7403

2/4

8/11/2021

28 U.S. Code § 1291 - Final decisions of district courts | U.S. Code | US Law | Lll / Legal Information Institute

LII > U.S. Code > Title 28 > PART IV > CHAPTER 83 > §1291

28 U.S. Code § 1291 - Final decisions of district courts
U.S. Code

Notes

The courts of appeals (other than the United States Court of Appeals for the
Federal Circuit) shall have jurisdiction of appeals from all final decisions of the
district courts of the United States, the United States District Court for the
District of the Canal Zone, the District Court of Guam, and the District Court
of the Virgin Islands, except where a direct review may be had in the
Supreme Court. The jurisdiction of the United States Court of Appeals for the
Federal Circuit shall be limited to the jurisdiction described in sections 1292(c)
and (d) and 1295 of this title.
(June 25, 1948, ch. 646, 62 Stat. 929; Oct. 31, 1951, ch. 655, §48, 65 Stat.
726; Pub. L, 85-508, § 12(e), July 7, 1958, 72 Stat. 348; Pub. L. 97-164, title
I, § 124, Apr. 2, 1982, 96 Stat. 36.)

Si U.S. Code Toolbox
Law about... Articles from Wex
https://www.law.cornell.edu/uscode/text/28/1291

U

1/3

8/13/2021

"

28 U.S. Code § 2001 - Sale of realty generally | U.S. Code | US Law) Lll / Legal Information Institute

LII > U.S. Code > Title 28 > PART V > CHAPTER 127 >§2001

28 U.S. Code § 2001 - Sale of realty generally
U.S. Code

Notes

(a) Any realty or Interest therein sold under any order or decree of any
court of the United States shall be sold as a whole or in separate parcels at
public sale at the courthouse of the county, parish, or city in which the
greater part of the property is located, or upon the premises or some
parcel thereof located therein, as the court directs. Such sale shall be
upon such terms and conditions as the court directs.
Property in the possession of a receiver or receivers appointed by one or
more district courts shall be sold at public sale in the district wherein any
such receiver was first appointed, at the courthouse of the county, parish,
or city situated therein in which the greater part of the property in such
district is located, or on the premises or some parcel thereof located in
such county, parish, or city, as such court directs, unless the court orders
the sale of the property or one or more parcels thereof in one or more
ancillary districts.
(b) After a hearing, of which notice to all interested parties shall be given
by publication or otherwise as the court directs, the court may order the
sale of such realty or interest or any part thereof at private sale for cash
or other consideration and upon such terms and conditions as the court
approves, if it finds that the best interests of the estate will be conserved
thereby. Before confirmation of any private sale, the court shall appoint
three disinterested persons to appraise such property or different groups
of three appraisers each to appraise properties of different classes or
situated in different localities. No private sale shall be confirmed at a price
less than two-thirds of the appraised value. Before confirmation of any
https://viww.law.corneil.edu/uscode/text/28/2001

1/4

8/13/2Ci21

28 U.S. Code § 2001 - Sale of realty generally | U.S. Code | US Law | Lit / Legal Information Institute

private sale, the terms thereof shall be published in such newspaper or
newspapers of general circulation as the court directs at least ten days
before confirmation. The private sale shall not be confirmed if a bona fide
offer is made, under conditions prescribed by the court, which guarantees
at least a 10 per centum increase over the price offered in the private
sale.
(c) This section shall not apply to sales and proceedings under Title 11 or
by receivers or conservators of banks appointed by the Comptroller of the
Currency.
(June 25, 1948, ch. 646, 62 Stat. 958; May 24, 1949, ch. 139, §99, 63 Stat.
104.)

U.S. Code Toolbox
Law about... Articles from Wex
Table of Popular Names
Parallel Table of Authorities
How current is this?

b

https://www.law.cornell.edu/uscode/text/28/2001

2/4

8/13/2021

28 U.S. Code § 2002 - Notice of sale of realty j U.S. Code | US Law | Lll / Legal Information Institute

LII > U.S. Code > Title 28 > PART V > CHAPTER 127 > § 2002

28 U.S. Code § 2002 - Notice of sale of realty
U.S. Code

Notes

A public sale of realty or interest therein under any order, judgment or
decree of any court of the United States shall not be made without notice
published once a week for at least four weeks prior to the sale in at least one
newspaper regularly issued and of general circulation in the county, state, or
judicial district of the United States wherein the realty is situated.
If such realty is situated in more than one county, state, district or circuit,
such notice shall be published in one or more of the counties, states, or
districts wherein it is situated, as the court directs. The notice shall be
substantially in such form and contain such description of the property by
reference or otherwise as the court approves. The court may direct that the
publication be made in other newspapers.
This section shall not apply to sales and proceedings under Title 11 or by
receivers or conservators of banks appointed by the Comptroller of the
Currency.
(June 25, 1948, ch. 646, 62 Stat. 959; May 24, 1949, ch. 139, § 100, 63 Stat.
104.)

https://www.law.cornell.edu/uscode/text/28/2002

1/3

0/13/2021

28 U.S. Code § 3202 - Enforcement of judgments | U.S. Code | US Law | Lll / Legal Information Institute

1

LII > U.S. Code > Title 28 > PART VI > CHAPTER 176 > SUBCHAPTER C >§3202

28 U.S. Code § 3202 - Enforcement of judgments
U.S. Code

Notes

(a) Enforcement Remedies.—A judgment may be enforced by any of the
remedies set forth in this subchapter. A court may issue other writs pursuant
to section 1651 of title 28, United States Code, as necessary to support such
remedies, subject to rule 81(b) of the Federal Rules of Civil Procedure.
(b) Notice.—On the commencement by the United States of an action or
proceeding under this subchapter to obtain a remedy, the counsel for the
United States shall prepare, and clerk of the court shall issue, a notice in
substantially the following form:
"Notice
"You are hereby notified that this [property] is being taken by the United
States Government, which has a court judgment in [case docket number and
jurisdiction of court] of $[amount] for [reason of debt].
"In addition, you are hereby notified that there are exemptions under the
law which may protect some of this property from being taken by the United
States Government if [name of judgment debtor] can show that the
exemptions apply. Below is a summary of the major exemptions which apply
in most situations in the State of [State where property is located]:
"[A statement summarizing in plain and understandable English the election
available with respect to such State under section 3014 and the types of
property that may be exempted under each of the alternatives specified in
paragraphs (1) and (2) of section 3014(a) and a statement that different
property may be so exempted with respect to the State in which the debtor
resides.]
https://www.law.comell.edii/uscode/text/28/3202

1/5

8/13/2021

28 U.S. Code § 3202 - Enforcement of judgments | U.S. Code | US Law | Lll / Legal Information Institute

"If y°u are [name of judgment debtor], you have a right to ask the court to
return your property to you if you think the property the Government is taking
qualifies under one of the above exemptions [For a default judgment:! or if
you think you do not owe the money to the United States Government that it
says you do.
"If you want a hearing, you must notify the court within 20 days after you
receive this notice. You must make your request in writing, and either mail it
or deliver it in person to the clerk of the court at [address]. If you wish, you
may use this notice to request the hearing by checking the box below and
mailing this notice to the court clerk. You must also send a copy of your
request to the Government at [address], so the Government will know you
want a hearing. The hearing will take place within 5 days after the clerk
receives your request, if you ask for it to take place that quickly, or as soon
after that as possible.
"At the hearing you may explain to the judge why you believe the property
the Government has taken is exempt [For a default judgment:! or why you
think you do not owe the money to the Government. [For a writ of execution:]
If you do not request a hearing within 20 days of receiving this notice, your
[property! may be sold at public auction and the payment used toward the
money you owe the Government.
"If you think you live outside the Federal judicial district in which the court is
located, you may request, not later than 20 days after your&l receive this
notice, that this proceeding to take your property be transferred by the court
to the Federal judicial district in which you reside. You must make your
request in writing, and either mail it or deliver it in person to the clerk of the
court at [address]. You must also send a copy of your request to the
Government at [address], so the Government will know you want the
proceeding to be transferred.
"Be sure to keep a copy of this notice for your own records. If you have any
questions about your rights or about this procedure, you should contact a
lawyer, an office of public legal assistance, or the clerk of the court. The clerk
is not permitted to give legal advice, but can refer you to other sources of
information."
(c) Service.—A copy of the notice and a copy of the application for granting
a remedy under this subchapter shall be served by counsel for the United
States on the judgment debtor against whom such remedy is sought and on
each person whom the United States, after diligent inquiry, has reasonable
cause to believe has an interest in property to which the remedy is directed.

https://www.law.cornell.edu/uscode/text/28/3202

2/5

8/13/2021

28 U.S. Code § 3202 - Enforcement of judgments | U.S. Code | US Law | Lll / Legal Information Institute

(d) Hearing.—By requesting, within 20 days after receiving the notice
described in section 3202(b), the court to hold a hearing, the iydgrnent debtor
may move to quash the order granting such remedy. The courtthat issued
such order shall hold a hearing on such motion as soon as practicable, or, if so
requested by the judgment debtor, within 5 days after receiving the request or
as soon thereafter as possible. The issues at such hearing shall be limited—
(1) to the probable validity of any claim of exemption by the judgment
debtor;
(2) to compliance with any statutory requirement for the issuance of the
postjudgment remedy granted; and
(3) if the judgment is by default and only to the extent that the Constitution
or another law of the United States provides a right to a hearing on the issue,
to—
(A) the probable validity of the claim for the debt which is merged in the
judgment; and
(B) the existence of good cause for setting aside such judgment.
This subparagraph shall not be construed to afford the judgment debtor the
right to more than one such hearing except to the extent that the Constitution
or another law of the United States provides a right to more than one such
hearing.
(e) Sale of Property.—The property of a judgment debtor which is subject
to sale to satisfy the judgment may be sold by judicial sale, pursuant to
sections 2001, 2002, and 2004 or by execution sale pursuant to section
3203(g). If a hearing is requested pursuant to subsection (d), property with
respect to which the request relates shall not be sold before such hearing.
(Added Pub. L. 101-647, title XXXVI, §3611, Nov. 29, 1990, 104 Stat. 4949.)

https://viww.law.corneil.edij/uscode/text/28/3202

3/5

8/13/2021

28 U.S. Code § 3203 - Execution | U.S. Code | US Law | Lll / Legal Information Institute

t

HI > U.S. Code > Title 28 > PART VI > CHAPTER 176 > SUBCHAPTER C > §3203

28 U.S. Code § 3203 - Execution
U.S. Code

Notes

(a) Property Subject to Execution.—
AI1 Property in which the judgment debtor has a substantial nonexempt
interest shall be subject to levy pursuant to a writ of execution. The
debtor's earnings shall not be subject to execution while in the possession,
custody, or control of the debtor's employer. Co-owned property shall be
subject to execution to the extent such property is subject to execution
under the law of the State in which it is located.
(b) Creation of Execution Lien.—
A lien shall be created in favor of the United States on all property levied
on under a writ of execution and shall date from the time of the levy. Such
lien shall have priority over all subsequent liens and shall be for the
aggregate amount of the judgment, costs, and interest. The execution lien
on any real property as to which the United States has a judgment lien
shall relate back to the judgment lien date.
(c) Writ of Execution.—
(1) Issuance.—
On written application of counsel for the United States, the court may
issue a writ of execution. Multiple writs may issue simultaneously, and
successive writs may issue before the return date of a writ previously
issued.
(2) Form of writ.—
(A) General contents.—
https://www.law.comell.edu/uscode/text/28/3203

1/10

8/13/2021

28 U.S. Code § 3203 - Execution | U.S. Code | US Law | Lll / Legal Information Institute

A writ of execution shall specify the date that the judgment is
entered, the court in which it is entered, the amount of the
judgment if for money, the amount of the costs, the amount of
interest due, the sum due as of the date the writ is issued, the rate
of postjudgment interest, the name of the judgment debtor, and the
judgment debtor's last known address.
(B) Additional contents —
(i) Except as provided in clauses (ii) and (iii), the writ shall
direct the United States marshal to satisfy the judgment by
levying on and selling property in which the judgment debtor
has a substantial nonexempt interest, but not to exceed property
reasonably equivalent in value to the aggregate amount of the
judgment, costs, and interest.
(ii) A writ of execution issued on a judgment for the delivery to
the United States of the possession of personal property, or for
the delivery of the possession of real property, shall particularly
describe the property, and shall require the marshal to deliver
the possession of the property to the United States.
(iii) A writ of execution on a judgment for the recovery of
personal property or its value shall direct the marshal, in case a
delivery of the specific property cannot be had, to levy and
collect such value out of any property in which the judgment
debtor has a substantial nonexempt interest.

(d) Levy

of

Execution.—

(1) In general.—
Levy on property pursuant to a writ of execution issued under this
section shall be made in the same manner as levy on property is made
pursuant to a writ of attachment issued under section 3102(d).
(2) Death of judgment debtor.—The death of the judgment debtor
after a writ of execution is issued stays the execution proceedings, but
any lien acquired by levy of the writ shall be recognized and enforced
by the court for the district in which the estate of the deceased is
located. The execution lien may be enforced—
(A) against the executor, administrator, or personal representative
of the estate of the deceased; or
https://www.law.comell.edu/uscode/text/28/3203

2/10

8/13/2021

r

'

28 U.S. Code § 3203 - Execution | U.S. Code | US Law | Lll / Legal Information Institute

(B) if there be none, against the deceased's property coming to the
heirs or devisees or at their option against cash in their possession,
but only to the extent of the value of the property coming to them.
(3) Records

of united states marshal.—

(A) A United States marshal receiving a writ of execution shall
endorse thereon the exact hour and date of receipt.
(B) The United States marshal shall make a written record of every
levy, specify the property on which levy is made, the date on which
levy is made, and the marshal's costs, expenses, and fees.
(C) The United States marshal shall make a written return to the
court on each writ of execution stating concisely what is done
pursuant to the writ and shall deliver a copy to counsel for the
United States who requests the writ. The writ shall be returned not
more than—
(i) 90 days after the date of issuance if levy is not made; or
(ii) 10 days after the date of sale of property on which levy is
made.

(e) Appointment of Receiver.—
Pending the levy of execution, the court may appoint a receiver to manage
property described in such writ if there is a substantial danger that the
property will be removed from the jurisdiction of the court, lost, materially
injured or damaged, or mismanaged.
(f) Replevy; Redemption.—
(1) Before

execution sale.—

(A) Before execution sale, the United States marshal may return
property m to the judgment debtor any personal property taken in
execution, on—
(i) satisfaction of the judgment, interest, and costs, and any
costs incurred in connection with scheduling the sale; or
(ii) receipt from the judgment debtor of a bond—
(I) payable to the United States, with 2 or more good and
sufficient sureties to be approved by the marshal, conditioned
on the delivery of the property to the marshal at the time
https://www.law.comell.edij/uscode/text/28/3203

3/10

8/13/2021

*

28 U.S. Code § 3203 - Execution | U.S. Code | US Law | Lll / Legal Information Institute

and place named in the bond to be sold under subsection (g);
or
(II) for the payment to the marshal of a fair value thereof
which shall be stated in the bond.
(B) A judgment debtor who sells or disposes of property replevied
under subparagraph (A) shall pay the United States marshal the
stipulated value of such property.
(C) If the judgment debtor fails to deliver such property to the
United States marshal pursuant to the terms of the delivery
described in subparagraph (A)(ii)(I) and fails to pay the United
States marshal the stipulated value of such property, the United
States marshal shall endorse the bond "forfeited" and return it to
the court from which the writ of execution issued. If the judgment is
not fully satisfied, the court shall issue a writ of execution against
the judgment debtor and the sureties on the bond for the amount
due, not exceeding the stipulated value of the property, on which
execution no delivery bond shall be taken, which instruction shall be
endorsed on the writ.
(2) After execution sale.—
The judgment debtor shall not be entitled to redeem the property after
the execution sale.
(g) Execution Sale.—
(1) General procedures.—An execution sale under this section shall
be conducted in a commercially reasonable manner—
(A) Sale of real property—
(i) In general.—
(I) Except as provided in clause (ii), real property, or any
interest therein, shall be sold, after the expiration of the 90day period beginning on the date of levy under subsection
(d), for cash at public auction at the courthouse of the
county, parish, or city in which the greater part of the
property is located or on the premises or some parcel
thereof.

https://www.law.cornell.edu/uscode/text/28/3203

4/10

8/13/2021 *

28 U.S. Code § 3203 - Execution j U.S. Code J US Law | Lll / Legal Information Institute

(II) The court may order the sale of any real property after
the expiration of the 30-day period beginning on the date of
levy under subsection (d) if the court determines that such
property is likely to perish, waste, be destroyed, or otherwise
substantially depreciate in value during the 90-day period
beginning on the date of levy.
(III) The time and place of sale of real property, or any
interest therein, under execution shall be advertised by the
United States marshal, by publication of notice, once a week
for at least 3 weeks prior to the sale, in at least one
newspaper of general circulation in the county or parish
where the property is located. The first publication shall
appear not less than 25 days preceding the day of sale. The
notice shall contain a statement of the authority by which the
sale is to be made, the time of levy, the time and place of
sale, and a brief description of the property to be sold,
sufficient to identify the property (such as a street address
for urban property and the survey identification and location
for rural property), but it shall not be necessary for the notice
to contain field notes. Such property shall be open for
inspection and appraisal, subject to the judgment debtor's
reasonable objections, for a reasonable period before the day
of sale.
(IV) The United States marshal shall serve written notice of
public sale by personal delivery, or certified or registered
mail, to each person whom the marshal has reasonable cause
to believe, after a title search is conducted by the United
States, has an interest in property under execution, including
lienholders, co-owners, and tenants, at least 25 days before
the day of sale, to the last known address of each such
person.
(ii) Sale of city lots.—
If the real property consists of several lots, tracts, or parcels in a
city or town, each lot, tract, or parcel shall be offered for sale
separately, unless not susceptible to separate sale because of
the character of improvements.
(iii) Sale of rural property.—If the real property is not located in
a city or town, the judgment debtor may—
https://www.law.comell.edu/uscode/tex(/28/3203

5/10

8/13/2C&1
{

28 U.S. Code § 3203 - Execution | U.S. Code | US Law | Lll / Legal Information Institute

•

(I) divide the property into lots of not less than 50 acres or
in such greater or lesser amounts as ordered by the court;
(XI) furnish a survey of such prepared by a registered
surveyor; and
(XII) designate the order in which those lots shall be sold.
When a sufficient number of lots are sold to satisfy the
amount of the execution and costs of sale, the marshal shall
stop the sale.
(B) Sale of personal property.—
(i) Personal property levied on shall be offered for sale on the
premises where it is located at the time of levy, at the
courthouse of the county, parish or city wherein it is located, or
at another location if ordered by the court. Personal property
susceptible of being exhibited shall not be sold unless it is
present and subject to the view of those attending the sale
unless—
(I) the property consists of shares of stock in corporations;
(II) by reason of the nature of the property, it is impractical
to exhibit it; or
(III) the debtor's interest in the property does not include
the right to the exclusive possession.
(H)
(I) Except as provided in subclause (II), personal property,
or any interest therein, shall be sold after the expiration of
the 30-day period beginning on the date of levy under
subsection (d).
(II) The court may order the sale of any personal property
before the expiration of such 30-day period if the court
determines that such property is likely to perish, waste, be
destroyed, or otherwise substantially depreciate in value
during such 30-day period.
(Hi) Notice of the time and place of the sale of personal property
shall be given by the United States marshal by posting notice
https://www.law.com0ll.edu/uscodertext/28/32O3

6/10

8/13/20ih

28 U.S. Code § 3203 - Execution | U.S. Code | US Law | Lll / Legal Information Institute

thereof for not less than 10 days successively immediately
before the day of sale at the courthouse of any county, parish, or
city, and at the place where the sale is to be made.
(iv) The United States marshal shall serve written notice of
public sale by personal delivery, or registered or certified mail at
their last known addresses, on the judgment debtor and other
persons who the marshal has reasonable cause to believe, after
diligent inquiry, have a substantial interest in the property.
(2) Postponement of sale.—
The United States marshal may postpone an execution sale from time
to time by continuing the required posting or publication of notice until
the date to which the sale is postponed, and appending, at the foot of
each such notice of a current copy of the following:
"The above sale is postponed until the
day of
,19 , at
o'clock .M.,
, United States Marshal for the District of
, Deputy, dated
/ by
(3) Sale

procedures.—

(A) Bidding requirements.—
A bidder at an execution sale of property, may be required by the
United States marshal to make a cash deposit of as much as 20
percent of the sale price proposed before the bid is accepted.
(B) Resale of property.—
If the terms of the sale are not complied with by the successful
bidder, the United States marshal shall proceed to sell the property
again on the same day if there is sufficient time. If there is
insufficient time, the marshal shall schedule and notice a
subsequent sale of the property as provided in paragraphs (1) and
(2).
(4) Rights

and liabilities of purchasers.—

(A) Transfer of title after sale.—
(i) If property is sold under this subsection and the successful
bidder complies with the terms of the sale, the United States
marshal shall execute and deliver all documents necessary to
transfer to the successful bidder, without warranty, all the rights,

https://www.law.cornell.edu/uscode/text/28/3203

7/10

8/13/2051
/■. <

28 U.S. Code § 3203 - Execution | U.S. Code | US Law | Lll / Legal Information Institute
f

titles, interests, and claims of the judgment debtor in the
property.
(ii) If the successful bidder dies before execution and delivery of
the documents needed to transfer ownership, the United States
marshal shall execute and deliver them to the successful bidder's
estate. Such delivery to the estate shall have the same effect as
if accomplished during the lifetime of the purchaser.
(B) Purchaser considered innocent purchaser without notice.—
The purchaser of property sold under execution shall be deemed to
be an innocent purchaser without notice if the purchaser would
have been considered an innocent purchaser without notice had the
sale been made voluntarily and in person by the judgment debtor.
(C) Liability of successful bidder who fails to comply.—
A successful bidder at an execution sale who fails to comply with
the terms of the sale shall forfeit to the United States the cash
deposit or, at the election of the United States, shall be liable to the
United States, on a subsequent sale of the property, for all net
losses incurred by the United States as a result of such failure.

(h) Disposition

of

(1) Distribution

Proceeds; Further Levy.—
of sale proceeds.—

(A) The United States marshal shall first deliver to the judgment
debtor such amounts to which the judgment debtor is entitled from
the sale of partially exempt property.
(B) The United States marshal shall next deduct from the proceeds
of an execution sale of property an amount equal to the reasonable
expenses incurred in making the levy of execution and in keeping
and maintaining the property.
(C) Except as provided in subparagraph (D), the United States
marshal shall deliver the balance of the proceeds to the counsel for
the United States as soon as practicable.
(D) If more proceeds are received from the execution sale than is
necessary to satisfy the executions held by the United States
marshal, the marshal shall pay the surplus to the judgment debtor.
(2) Further

levy if execution not satisfied.—

https://www.law.comell.edu/uscode/text/28/3203

8/10

8/13/2021

28 U.S. Code § 3203 - Execution J U.S. Code J US Law J Lll / Legal Information Institute

f

If the proceeds of the execution sale of the property levied on are
insufficient to satisfy the execution, the United States marshal shall
proceed on the same writ of execution to levy otherjproperty of the
judgment debtor.

(Added Pub. L. 101-647, title XXXVI, 5 3611, Nov. 29, 1990, 104 Stat. 4950.)

£ U.S. Code Toolbox
Law about... Articles from Wex
Table of Popular Names
Parallel Table of Authorities
How current is this?

16

https://www.law.cornell.edu/uscode/text/28/3203

9/10

9/21/21,9:£)9 PM

Rule 38. Frivolous Appeal—Damages and Costs | Federal Rules of Appellate Procedure | US Law | Lll / Legal Information Institute

f * *

LII > Federal Rules of Appellate Procedure
> Rule 38. Frivolous Appeal—Damages and Costs

Rule 38. Frivolous Appeal—Damages and Costs
If a court of appeals determines that an appeal is frivolous, it may, after a separately
filed motion or notice from the court and reasonable opportunity to respond, award
just damages and single or double costs to the appellee.
Notes
(As amended Apr. 29, 1994, eff. Dec. 1, 1994; Apr. 24, 1998, eff. Dec. 1, 1998.)
Notes

of

Advisory Committee

on

Rules—1967

Compare 28 U.S.C. §1912. While both the statute and the usual rule on the subject
by courts of appeals (Fourth Circuit Rule 20 is a typical rule) speak of "damages for
delay," the courts of appeals quite properly allow damages, attorney's fees and other
expenses incurred by an appellee if the appeal is frivolous without requiring a showing
that the appeal resulted in delay. See Dunscombe v. Sayle, 340 F.2d 311 (5th Cir.,
1965), cert, den., 382 U.S. 814, 86 S.Ct. 32, 15 L.Ed.2d 62 (1965); Lowe v. Willacy,
239 F.2d 179 (9th Cir., 1956); Griffith Wellpoint Corp. v. Munro-Langstroth, Inc., 269
F.2d 64 (1st Cir., 1959); Ginsburg v. Stern, 295 F.2d 698 (3d Cir., 1961). The subjects
of interest and damages are separately regulated, contrary to the present practice of
combining the two (see Fourth Circuit Rule 20) to make it clear that the awards are
distinct and independent. Interest is provided for by law; damages are awarded by
the court in its discretion in the case of a frivolous appeal as a matter of justice to the
appellee and as a penalty against the appellant.
Notes

of

Advisory Committee

on

Rules—1994 Amendment

The amendment requires that before a court of appeals may impose sanctions, the
person to be sanctioned must have notice and an opportunity to respond. The
amendment reflects the basic principle enunciated in the Supreme Court's opinion in
Roadway Express, Inc. v. Piper, 447 U.S. 752, 767 (1980), that notice and
opportunity to respond must precede the imposition of sanctions. A separately filed
https://www.law.comeH.edu/rules/frap/rule_38

1/4

Rul° 3B- Frivo,ous Appeal-Damages and Costs | Federal Rules of Appellate Procedure | US Law | Lll / Legal Information Institute

motibn requesting sanctions constitutes notice. A statement inserted in a party's brief
that the party moves for sanctions is not sufficient notice. Requests in briefs for
sanctions have become so commonplace that it is unrealistic to expect careful
responses to such requests without any indication that the court is actually
contemplating such measures. Only a motion, the purpose of which is to request
sanctions, is sufficient. If there is no such motion filed, notice must come from the
court. The form of notice from the court and of the opportunity for comment
purposely are left to the court's discretion.
Committee Notes

on

Rules—1998 Amendment

Only the caption of this rule has been amended. The changes are intended to be
stylistic only.
< Rule 37. Interest on Judgment up Rule 39. Costs >

Federal Rules of Appellate
Procedure Toolbox
• Wex: Appellate Procedure:
Overview

i 20

https7Avww.law.cornell.edu/rul0S/frap/rule_38

2/4

